                                     SOCIAL SECURITY
MEMORANDUM

Date:   November 9, 2010                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Identifying Requirements for the Disability Case Processing System Based on Findings
        from Prior Audits (A-44-10-20101)


        The attached final report presents the results of our review. Our objective was to
        identify potential requirements for the Social Security Administration to consider as it
        develops the new Disability Case Processing System.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
     QUICK RESPONSE
      EVALUATION
    Identifying Requirements for the
Disability Case Processing System Based
     on Findings from Prior Audits

             A-44-10-20101




             November 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                        Background
OBJECTIVE
Our objective was to identify potential requirements for the Social Security
Administration (SSA) to consider as it develops the new Disability Case Processing
System (DCPS).

BACKGROUND
Disability determinations under SSA’s Disability Insurance and Supplemental Security
Income programs are performed by disability determination services (DDS) in each
State or other responsible jurisdiction. Such determinations must be performed in
accordance with Federal law and underlying regulations. 1 Each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. SSA reimburses the DDSs for 100 percent of allowable
reported expenditures incurred in making disability determinations for the Agency, up to
their respective approved funding authorization.

The DDS environment consists of 5 systems, customized to 54 DDS software sets that
the Agency describes as rigid, outdated, and resource intensive. When SSA makes a
policy or system change that affects a system used by a DDS, the Agency must
address each of the customized systems individually. This process is costly and results
in multiple rollout schedules. In addition, because the environment consists of many
individual systems that are built independently, those systems are unable to
communicate with each other seamlessly. It is difficult for the Agency to share
workloads among its components and gather and analyze management information.

To address these issues, SSA plans to replace the five systems with a common case
processing system. DCPS is intended to allow the Agency and the DDSs to leverage
the latest in systems architecture, security, and application development technologies
and lay the foundation to support future initiatives and improved interfaces with other
SSA components. One of DCPS’ goals is to incorporate additional functionality, such
as decision support tools, improved quality checks, high availability, improved
management information, and compatibility with industry standards for electronic
medical records.

The Agency plans to include in DCPS a fiscal processing component for the
financial-related aspects of case processing (such as paying vendors). DDSs will have
the option to use the Federal fiscal process or State processes. However, DCPS will
provide the interfaces necessary to support State fiscal processes for States that prefer
(or require) that the DDSs use State processes.

1
 The Social Security Act §§ 221(a) and 1614(a), 42 U.S.C. §§ 421(a) and 1382c(a); see also 20 C.F.R.
§§ 404.1601 et seq. and 416.1001 et seq.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)             1
SSA has created the Federal and State business process models for DCPS, and the
Agency is identifying the system requirements for the fiscal module. SSA plans to
implement DCPS incrementally, starting with beta testing for a small number of users in
the summer of 2011.




Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)   2
                                                            Results of Review
To support the Agency’s effort to identify technical and functional requirements for
DCPS, we evaluated prior Office of the Inspector General audit findings related to the
DDSs. We identified findings in several areas for which automated controls could be
developed. 2 (For a list of the reports we reviewed, see Appendix B.)

CONSULTATIVE EXAMINATIONS AND MEDICAL EVIDENCE OF RECORD

Fee Schedules

The DDS is responsible for ensuring that adequate evidence is available to support its
disability determination. The DDS is authorized to pay for medical evidence of record
(MER) from claimants’ treating sources. 3 In addition, when existing medical evidence is
insufficient, not available, or cannot be obtained, the DDS is authorized to arrange and
pay for a consultative examination (CE) to obtain the additional information needed. 4 In
general, DDSs do not request a CE until every reasonable effort has been made to
obtain evidence from the individual's medical sources listed on the application. 5

SSA reimburses DDSs for the cost of MER and CEs. Each State determines its rates of
payment for purchasing MER and CEs. However, rates may not exceed the highest
rate paid by Federal or other agencies in the State for the same or similar type of
service. 6 DDSs are required to maintain fee schedules and periodically review those
schedules to ensure fees do not exceed the maximum payment rates. 7

In prior audits, we found that some DDSs had paid more for MER and CEs than was
allowed by SSA’s policy. For example, we found that the Arizona DDS improperly paid



2
  Our objective was not to identify all requirements for DCPS. Rather, our review focused specifically on
those prior audit findings for which automated controls could be developed in the new system to prevent
the recurrence of previously identified problems.
3
  MER includes, but is not limited to, medical history reports, medical opinions, treatment records, copies
of laboratory reports, prescriptions, ancillary tests, X rays, operative and pathology reports, consultative
reports and other technical information used to document disability claims. SSA, POMS, DI
39545.075.C.4.
4
  A CE is a physical or mental examination or test purchased for an individual at the Agency’s request
from a treating source or another medical source. 20 C.F.R §§ 404.1519 and 416.919. SSA, POMS, DI
22510.001 A.1.
5
    20 C.F.R. §§ 404.1517 and 416.917. SSA, POMS, DI 22510.001.A and B.4.
6
    20 C.F.R. §§ 404.1624 and 416.1024. SSA, POMS, DI 39545.600.A.
7
    SSA, POMS, DI 39545.700.A.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)                    3
$134,506 for CE fees in excess of the maximum allowable rates. 8 In addition, during an
audit of the Arkansas DDS, we determined the DDS paid $191,122 more for MER and
CEs than was allowed by SSA’s policy. 9

SSA could ensure that the costs for MER and CEs are paid in accordance with the
Agency’s policies by establishing controls in DCPS that limit payments to the allowable
rates. According to SSA, “DDS case processing/fiscal system should be programmed
to ensure that all payments authorized are consistent with the fee schedule or any
approved exemptions to the fee schedule. In addition, DDSs will conduct periodic
sample checks, when possible, to ensure payments to providers are consistent with the
fee schedule.” 10 We believe SSA should ensure that DCPS is similarly programmed.

Improper Payments

According to SSA, DDSs should not reimburse providers for missed CE appointments.
However, a DDS may request an exemption on a case by case basis in certain
instances (for example, if another State agency allows payments for missed CEs). 11

In prior audits, we found that some States made improper payments for missed CE
appointments or made duplicate payments to medical consultants. For example, in our
audit of the Alaska DDS, we found the DDS made payments totaling $120,920 for
missed CE appointments, and there was no evidence the State obtained an exemption
from SSA to allow such payments. 12

In a prior audit of the California DDS, we found that doctors were improperly paid twice
to review medical records. DDS employees misinterpreted existing procedures for
processing medical claims. As a result, the DDS improperly reimbursed doctors for
$132,520 in disallowed medical costs. 13 In a second audit of the California DDS, we
estimated that the DDS overpaid medical consultants $56,376. 14


8
 SSA OIG, Administrative Costs Claimed by the Arizona Disability Determination Services
(A-09-09-19020), March 2010.
9
 SSA OIG, Administrative Costs Claimed by the Arkansas Disability Determination Services
(A-06-05-15077), October 2005.
10
     SSA, POMS, DI 39545.700.C.
11
     SSA, POMS, DI 39545.275.
12
  SSA reimbursed the DDS $120,920 in unallowable costs for FYs 2001 through 2003 SSA OIG,
Administrative Costs Claimed by the Alaska Disability Determination Services (A-09-05-15025),
July 2005.
13
  SSA OIG, Audit of Administrative Costs at the California Disability Determination Services
(A-09-97-51006), December 1998.
14
  SSA OIG, Administrative Costs Claimed by the California Disability Determination Services
(A-09-06-16129), July 2007.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)           4
We believe DCPS should detect and prevent duplicate and improper payments to
medical consultants. The payment history as well as the reimbursed services should be
available for viewing by DDS personnel before payment is authorized. In addition, proof
of exemption data should be linked to the patient’s claim history information and
confirmed before authorization for payment is granted. Alerts can be used to notify
DDS personnel when payment is being made for a duplicate code for the same patient.

Vendor Maintenance

DDSs are required to use qualified medical sources to perform CEs. 15 CE providers
must certify that their employees meet the state’s certification or licensing
requirement. 16 SSA requires that, before using the services of any CE provider, a DDS
must review the Department of Health and Human Services, Office of the Inspector
General’s, Listing of Excluded Individuals/Entities (LEIE) to ensure the provider has not
been excluded from participation in Federal programs. 17 Further, the DDS must review
the LEIE and check licenses for each provider at least annually. 18

In audits of the Arkansas, Nebraska, and Utah DDSs, we found the DDS did not review
the LEIE to verify the licenses and credentials of contracted medical consultants. 19
There were no controls to ensure that contracted medical staff did not appear on
sanctioned lists. Also, in our audit of the Oklahoma DDS, staff stated they were
unaware of a requirement to review the LEIE. 20

DDSs are at risk of contracting with providers who are sanctioned or may be barred
from participating in Federal programs when the LEIE is not used. This could affect the
integrity of the medical information obtained, which, in turn, could lead to an improper
disability determination.

We believe DCPS should verify that medical consultants are not on the LEIE. In
addition, DCPS should alert DDS personnel to review a medical consultant’s license
and sanction status at least annually, in accordance with SSA’s policy.



15
     20 C.F.R. §§ 404.1519g and 416.919g SSA, POMS, Section DI 39569.300.A.
16
     SSA, POMS, Section DI 39569.300.A.
17
     SSA, POMS, Section DI 39569.300.B.1 and C.
18
     SSA, POMS, Section DI 39569.300.B.1 and B.2.
19
  SSA OIG, Administrative Costs Claimed by the Arkansas Disability Determination Services
(A-06-05-15077), October 2005; Administrative Costs Claimed by the Nebraska Disability Determination
Services (A-07-07-17170), June 2008; and Administrative Cost Claimed by the Utah Disability
Determination Services (A-07-09-19005), March 2009.
20
  SSA OIG, Administrative Costs Claimed by the Oklahoma Disability Determination Services
(A-07-05-15102), January 2006.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)             5
FINANCIAL MANAGEMENT

States may not be reimbursed for expenditures that are not approved by SSA or exceed
the amount SSA makes available to the State. SSA requires that State agencies under
which DDSs operate file a Form SSA-4513, State Agency Report of Obligations for
Disability Determination Programs, each quarter. 21 Obligations related to Personnel,
Medical, Indirect, and All Other Non-personnel costs must be promptly recorded in the
DDSs financial records. Once recorded, obligations should be adjusted, as needed, to
reflect the difference between the amount recorded and the actual amount disbursed.

Drawdown is the process whereby a State requests and receives Federal funds. Funds
to cover State expenditures are drawn from the Department of the Treasury’s
Automated Standard Application for Payment (ASAP) system. 22 Each State must enter
into a Treasury-State Agreement (TSA) with the Department of the Treasury’s Financial
Management Services, which outlines the techniques the State will use to draw down
funds from the Government. State conformance with the TSA ensures the State does
not owe the Government, or is not due from the Government, interest liability on its
drawdown. Federal regulations require that State agencies draw down funds only to
meet immediate funding needs. 23

To conduct our administrative cost audits, we request from the DDSs detailed
transaction data in support of the amounts they claimed on Forms SSA-4513 and we
evaluate the information to determine whether the costs were allowable. We also
determine whether Federal funds were properly drawn.

Obtaining Detailed Cost Data from the DDSs

In several prior audits, we had difficulty obtaining the detailed transaction information we
needed to conduct our audits. For example, we requested cost data for our audit of the
Washington DDS in October 2006, and we received the data in March 2007—5 months
after our initial request. 24 In another example, we requested data for our audit of the
Tennessee DDS in August 2005. The DDS was unable to provide us with all of the
information in support of their costs until January 2006. 25



21
     SSA, POMS, DI 39506.202.
22
  ASAP allows organizations receiving Federal funds to draw from accounts pre-authorized by Federal
agencies.
23
     31 C.F.R. § 205.11(b).
24
  SSA OIG, Administrative Costs Claimed by the Washington Disability Determination Services
(A-09-07-17103), March 2008.

25
  SSA OIG, Administrative Costs Claimed by the Tennessee Disability Determination Services
(A-04-06-16053), March 2007.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)             6
Once we obtain the detailed transaction information and reconcile it to the amounts
reported on the Form SSA-4513, we determine whether the costs were allowable. In
prior DDS audits, we found that amounts reported on Forms SSA-4513 did not always
accurately reflect the actual amount of disbursements. For example, during an audit of
the Alaska DDS, we found that the DDS charged $21,821 in administrative costs to the
incorrect fiscal years (FY) because of clerical errors. The DDS and its parent agency,
the Alaska Division of Vocational Rehabilitation, did not ensure the purchase orders for
goods and services were properly billed to the correct FY. 26

Drawdowns of Federal Funds

In prior audits, we found situations in which States did not comply with Federal
regulations for cash drawdowns. For example, during an audit of the Rhode Island
DDS, we found drawdowns exceeded the expenditures that were reported on Forms
SSA-4513 for FYs 2003 and 2004 by about $1.2 million. Either the cash was overdrawn
or the drawdowns were appropriate, but the costs that were claimed on Forms
SSA-4513 were understated. 27

In addition, during an audit of the West Virginia DDS, we determined that, between
FYs 2001 and 2005, the DDS drew about $3.1 million more in SSA funds than the
cumulative disbursements the DDS claimed on its Forms SSA-4513. Because of
inaccurate reporting of drawdowns and disbursements, the DDS did not accurately
calculate and pay interest on the excess Federal funds that were drawn. 28

Indirect Costs

In addition to reimbursing DDSs for 100 percent of the direct costs associated with
making disability determinations, States may charge SSA for indirect costs—such as
the costs for accounting and procurement services—based on an approved cost
allocation plan. OMB Circular A-87 requires that all DDSs use an approved cost
allocation plan for allocating indirect costs. 29




26
  SSA OIG, Administrative Costs Claimed by the Alaska Disability Determination Services
(A-09-05-15025), July 2005.
27
 SSA OIG, Administrative Costs Claimed by the Rhode Island Determination Services (A-01-06-15069),
December 2007.
28
  SSA OIG, Administrative Costs Claimed by the West Virginia Disability Determination Services
(A-13-06-16121,) June 2007.
29
 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments (Revised
May 10, 2004.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)            7
In a prior audit of the Colorado DDS, we found that the DDS’ parent agency, the
Colorado Department of Human Services, did not submit its cost allocation plan for
approval in a timely manner. 30 The DDS allocated indirect costs for FYs 2001 through
2003 based on the outdated FY 2001 indirect cost allocation plan. In addition, we found
that—after a new cost allocation plan was established—the Colorado Department of
Human Services did not update its software to ensure costs were allocated according to
the new indirect cost allocation plan. In a subsequent audit of the Colorado DDS, we
found that the Colorado Department of Human Services again charged indirect costs to
the DDS based on a cost allocation plan that had not been approved. 31

In another audit, we found the Texas Department of Assistive and Rehabilitative
Services allocated excessive indirect costs of about $2.2 million to the DDS in
FY 2007. 32

Suggested Controls in DCPS

Improper reporting of funds prevents SSA from accurately monitoring State
expenditures and unexpended appropriations. We believe DCPS should provide the
States—as well as SSA—with immediate access to information about the costs that
have been incurred at any point of time. Further, we believe DCPS should generate a
Form SSA-4513 that would report disbursements and obligations by reporting items.
The system should be able to reconcile disbursements as reported on Form SSA-4513
to the Department of the Treasury’s ASAP data. The system should also match each
payment to a corresponding obligation.

In addition, DCPS should include controls that limit the drawdowns to the DDS’ actual
expenditures. This would prevent States from drawing down funds in excess of their
actual expenditures and owing the Government interest on any excess. Finally, we
believe DCPS should allow each DDS to clearly define which accounts or transaction
codes to use to calculate indirect costs. The system should prompt the user to update
the indirect cost allocation when necessary. This will ensure the DDS is using
appropriate rates when allocating indirect costs to SSA.

SECURITY

SSA and DDS systems must have the proper controls to limit access to claimants’
information. Management should control access to all systems to ensure that only
personnel who require access to claimant data on DDS systems receive that access
and monitor personnel activity so misconduct can be deterred and/or detected. Weak
30
  SSA OIG, Administrative Costs Claimed by the Colorado Disability Determination Services
(A-15-03-13044), December 2003.
31
  SSA OIG, Administrative Costs Claimed by the Colorado Disability Determination Services
(A-07-07-17136), April 2008.
32
  SSA OIG, Indirect Costs Claimed by the Texas Disability Determination Services (A-06-08-18092),
January 2009.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)               8
access controls increase the risk of unauthorized users or authorized users making
unauthorized transactions. This, in turn, increases the risk that data and/or programs
could be improperly altered or deleted.

SSA’s systems’ access policy is based on the concepts of least-privilege and need-to-
know for controlling systems access. 33 It restricts user access to the minimum
necessary to perform his or her job duties. SSA also requires that DDS Security
Officers take immediate action to deactivate employee computer access privileges for
terminated employees. In prior audits, we found instances of insufficient controls over
access to the systems used at the DDS. For example, in an audit of the Kansas DDS,
we found that the user accounts for some terminated employees were not deactivated.
In addition, we found that some DDS employees had excessive access privileges. 34

The Privacy Act of 1974 35 requires that all Federal agencies “. . . establish appropriate
administrative, technical and physical safeguards to insure the security and
confidentiality of records and to protect against any anticipated threats or hazards to
their security or integrity which could result in substantial harm, embarrassment,
inconvenience, or unfairness to any individual on whom information is maintained.” 36
By ensuring that DCPS has the proper security and access controls, SSA and DDSs will
protect the confidentiality and integrity of disability claimant’s personal information.

DCPS should adhere to the most current Information Systems Security Handbook and
requirements, as specified in the Federal Information Security Management Act. 37
Specifically, DCPS should immediately deactivate the accounts of terminated
employees; prompt employees to change their passwords every 30 days; and employ
user profiles created specifically for the roles of the personnel who use the system.

VALIDATING DISABILITY DIAGNOSIS CODES

SSA uses a four-digit numeric code to identify the basic medical condition that renders
an individual disabled. In a prior audit, we estimated that the payment records for about
1.31 million beneficiaries did not have diagnosis codes that represented the medical
condition related to the individuals’ disabilities. 38 We believe DCPS should include
controls that prevent the system from accepting invalid diagnosis codes.


33
     SSA Information Systems Security Handbook, Chapter 2, Section 2.1 System Access Policy.
34
  SSA OIG, Audit of the Administrative Costs Claimed by the Kansas Disability Determination Services
(A-07-02-22003), October 2002.
35
     The Privacy Act of 1974, Pub. L. No. 93-579, 88 Stat. 1896 (codified as amended at 5 U.S.C. § 552a).
36
     5 U.S.C. § 552a(e)(10).
37
     Federal Information Security Management Act of 2002, 44 U.S.C § 3544.
38
  SSA OIG, Reliability of Diagnosis Codes Contained in the Social Security Administration’s Data Bases
(A-01-99-61001), March 2000.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)                  9
                                   Matters for Consideration
We identified several potential requirements for SSA to consider as the Agency
develops DCPS. We recognize that some of our suggestions may require more in-
depth analysis to determine whether they are cost-effective to implement, and that it
may be best to implement some requirements in later system updates.

We suggest that DCPS:

   •   Ensure all payments are consistent with the fee schedule or any approved
       exemptions to the fee schedule.

   •   Detect and prevent duplicate and improper payments to medical consultants. The
       payment history as well as the reimbursed services should be available before
       payment is authorized. In addition, proof of exemption data should be linked to
       the patient’s claim history information and confirmed before authorization for
       payment is granted. Alerts can be used to notify management when payment is
       being made for a duplicate code for the same patient.

   •   Verify that medical consultants are not on the LEIE and alert DDS personnel to
       review a medical consultant’s license and sanction status at least annually, in
       accordance with SSA’s policy.

   •   Generate a Form SSA-4513 that would report disbursements, unliquidated
       obligations, and total obligations by reporting items. The system should be able
       to reconcile data that would be reported as disbursements on Form SSA-4513
       with the Department of the Treasury’s ASAP data. The system should also
       match each payment to a corresponding obligation.

   •   Provide States with immediate access to information about the costs they have
       incurred at any point in time. There should also be controls that limit the
       drawdowns to the DDS’ actual expenditures.

   •   Allow each DDS to clearly define which accounts or transaction codes to use to
       calculate indirect costs. The system should be programmed to prompt the user
       to update the indirect cost allocation when necessary.

   •   Adhere to the most current Information Systems Security Handbook and
       requirements, as specified in the Federal Information Security Management Act
       of 2002. Specifically, DCPS should allow authorized personnel to deactivate the
       accounts of terminated employees, ensure that users change their passwords at
       least every 30 days, and employ user profiles created specifically for the roles of
       the personnel that use the system.

   •   Include controls that prevent the system from accepting invalid diagnosis codes.


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)   10
In response to our draft report, SSA stated the Agency will consider our suggestions as
it develops functionality for DCPS. Specifically, SSA plans to develop State-specific
requirements to ensure that payments for MER and CE are consistent with the fee
schedule or approved exemptions to the fee schedule. The Agency will also include
safeguards to prevent duplicate and improper payments to medical consultants in its
software development plan for DCPS. SSA also indicated it will explore the possibility
of linking LEIE with DCPS and consider generating alerts to prevent DDSs from
requesting services from unqualified medical sources. Finally, SSA will include
requirements for obligation and disbursement accounting in the Agency’s DCPS
development plan and will consider using automated controls to limit DDS drawdowns
to their actual expenditures.




Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)   11
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)
                                                                          Appendix A

Acronyms
ASAP                 Automated Standard Application for Payment
CE                   Consultative Examination
C.F.R                Code of Federal Regulations
DCPS                 Disability Case Processing System
DDS                  Disability Determination Services
FY                   Fiscal Year
LEIE                 Listing of Excluded Individuals/Entities
MER                  Medical Evidence of Record
OIG                  Office of the Inspector General
POMS                 Programs Operations Manual System
Pub. L. No.          Public Law Number
SSA                  Social Security Administration
TSA                  Treasury-State Agreement
U.S.C.               United States Code




Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)
                                                                                   Appendix B

Scope and Methodology
Our objective was to identify potential requirements for the Social Security Administration
to consider as the Agency develops the new Disability Case Processing System (DCPS).
To accomplish our objective, we reviewed prior disability determination services’ audit
reports produced by the Office of the Inspector General and identified recommendations
and/or issues that should be considered in the development of the new DCPS.

We performed our review from March through May 2010 in Baltimore, Maryland. We
conducted our review in accordance with the Council of the Inspectors General on Integrity
and Efficiency’s Quality Standards for Inspections.


State/Jurisdiction   Report
Alabama              September 2002 (A-08-01-11050); February 2008 (A-08-07-17151);
                     February 2010 (A-08-09-29163)
Alaska               July 2005 (A-09-05-15025)
Arizona              August 2001 (A-15-99-51009); March 2005 (A-09-04-14010);
                     March 2010 (A-09-09-19020)
Arkansas             September 1997 (A-07-97-52005); November 1999 (A-77-99-00014); October 2005
                     (A-06-05-15077)
California           December 1998 (A-09-97-51006); May 2003 (A-09-02-22022);
                     July 2007 (A-09-06-16129)
Colorado             January 1998 (A-07-97-52004); December 2003 (A-15-03-13044);
                     April 2008 (A-07-07-17136)
Connecticut          September 2001 (A-15-00-30016); October 2002 (A-15-02-22040);
                     September 2004 (A-15-03-23041); September 2007 (A-15-07-16034);
                     February 2008 (A-15-07-27176)
Delaware             September 1999 (A-13-98-52015); August 2005 (A-13-05-15011)
District of          February 2001(A-13-98-91003); August 2004 (A-15-04-14052 );
Columbia             November 2005 (A-15-05-30018); March 2008 (A-15-08-18019)
Florida              September 2003 (A-08-03-13006); January 2007 (A-14-06-16023);
                     March 2007 (A-15-06-16127)
Georgia              February 2004 (A-15-01-11021)
Hawaii               September 2003 (A-09-03-13012)
Idaho                May 2007 (A-09-06-16120)
Illinois             August 2003 (A-05-02-22019); May 2007 (A-05-06-16118)
Indiana              June 2006 (A-05-05-15135)
Iowa                 June 2005 (A-07-04-14087)
Kansas               October 2002 (A-07-02-22003)
Kentucky             September 2003 (A-08-03-13007); February 2009 (A-08-08-18059)
Louisiana            November 2005 (A-06-05-15032)


Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)              B-1
State/Jurisdiction   Report
Maine                September 1997 (A-01-97-82005); November 2005 (A-01-05-15026)
Maryland             June 1997 (A-13-96-25000); February 2007 (A-13-06-16029)
Massachusetts        July 2004 (A-01-04-14032); August 2009 ( A-01-09-19035
Michigan             August 1998 (A-05-96-51095); May 2004 (A-05-03-13036);
                     September 2009 (A-05-08-18017)
Minnesota            September 2004 (A-05-04-14036)
Mississippi          May 2007 (A-08-06-16125)
Missouri             May 1999 (A-07-97-51006 ); July 2007 (A-07-06-16098)
Montana              July 2004 (A-07-04-14016)
Nebraska             June 2008 (A-07-07-17170)
Nevada               August 2004 (A-09-04-14009)
New Hampshire        May 2005 (A-01-05-15012)
New Jersey           June 1997 (A-02-95-00002); August 2007 (A-02-06-16043)
New Mexico           October 2003 (A-06-03-13016); September 2008 (A-06-08-18034);
                     September 2009 (A-06-09-19122)
New York             September 2004 (A-02-04-24017); June 2003 (A-15-00-20053);
                     June 2007 (A-02-07-17046)
North Carolina       May 2006 (A-04-05-15040)
North Dakota         September 2002 (A-15-02-12036)
Ohio                 September 1999 (A-13-98-51007); May 2005 (A-05-04-14028)
Oklahoma             January 2006 (A-07-05-15102)
Oregon               February 2001 (A-15-99-52021); June 2005 (A-09-05-15001)
Pennsylvania         August 2005 (A-15-04-14080); March 2009 (A-15-09-19021)
Puerto Rico          February 2003 (A-06-02-22072); September 2004 (A-06-04-34035);
                     March 2007 (A-06-06-16117)
Rhode Island         December 2007 (A-01-06-15069)
South Carolina       October 2004 (A-04-04-14053)
South Dakota         February 2005 (A-15-03-13060)
Tennessee            March 1998 (A-04-96-54001); March 2007 (A-04-06-16053)
Texas                March 2004 (A-15-02-12051); March 2006 (A-06-06-16008);
                     January 2009 (A-06-08-18092)
Utah                 March 2009 (A-07-09-19005)
Vermont              October 2006 (A-01-06-16041)
Virginia             May 2006 (A-13-05-15134)
Washington           September 2003 (A-15-02-12025); March 2008 (A-09-07-17103)
West Virginia        December 2003 (A-07-03-23072); July 2007 (A-13-06-16121)
Wisconsin            July 2003 (A-01-03-23081, Limited Distribution); August 2003 (A-01-03-23090);
                     November 2005 (A-05-05-15013)
Wyoming              July 2004 (A-07-04-14051)




Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)                B-2
Other Related Reports

•   Access to Social Security Administration Data Provided by Disability Determination Services
    Positional Profiles (A-14-07-17024, Limited Distribution), September 2007.

•   Assessing the Application Controls for the Social Security Administration’s Modernized Claims
    System and National Disability Determination Services System (A-15-07-17155), April 2008.

•   Compliance with Disability Determination Services Security Review Requirements (A-05-07-
    17082), February 2008.

•   Congressional Response Report: Reinstatement of the Reconsideration Step in the Michigan
    Disability Determination Services (A-01-10-20153), April 2010.

•   Contract with I. Levy and Associates for Development and Implementation of the Electronic
    Folder Interface at Disability Determination Services (A-07-07-17104), September 2007.

•   Contract for the Migration of I. Levy Software at Disability Determination Services
    (A-07-07-17033, Limited Distribution), May 2007.

•   Congressional Response Report: Disability Determination Services Medical Consultant
    Assessments (A-01-10-11007), May 2010.

•   Disability Determination Services' Budget Execution and Reporting of Limitation on
    Administrative Expense Funds (A-15-99-52001), November 2001.

•   Disability Determination Services’ Claims Processing Performance (A-07-03-13054), August
    2004.

•   Congressional Response Report: Disability Determination Services Disability Decisions
    (A-15-08-28114), August 2008.

•   Disability Determination Services Net Accuracy Rate – Allowances and Denials Combined (A-
    15-04-14074), November 2004.

•   Disability Determination Services’ Staffing Under the American Recovery and Reinvestment
    Act (A-07-09-29156), December 2009.

•   Disability Determination Services’ Use of Social Security Numbers on Third-Party
    Correspondence (A-04-05-15098), September 2005.

•   Disability Determination Services' Use of Volume Consultative Examination Providers
    (A-07-02-12049), March 2003.

•   Fees Paid by State Disability Determination Services to Purchase Consultative Examinations
    (A-07-99-21004), September 2001.

•   General Controls of the Washington Division of Disability Determination Services Claims
    Processing System Needs Improvement (A-14-02-22093, Limited Distribution), September
    2003

Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)             B-3
•   Medical Evidence of Record Collection Process at State Disability Determination Services (A-
    07-99-21003), June 2001.

•   Management Advisory Report: The Social Security Administration’s Oversight of the Disability
    Determination Services’ Systems Security (A-14-02-22026, Limited Distribution), October 2002.

•   National Rollout of Quick Disability Determinations (A-01-09-19030), May 2009.

•   Performance Indicator Audit: Disability Determination Services Processing
    (A-02-06-16110), May 2007.

•   Performance Indicator Audit: Disability Determination Services Processing
    (A-02-07-17131), July 2008.

•   Quick Disability Determinations (A-01-07-17035), May 2007.

•   Congressional Response Report: Social Security Administration Chicago Regional Office’s
    Disability Determination Services Net Accuracy Rate (A-07-04-24094), July 2004.

•   Follow-Up: The Social Security Administration’s Implementation of Program Operations Manual
    Systems Security Requirements for Disability Determination Services (A-14-08-18076), May
    2009.

•   State Disability Determination Services' Removal of Sensitive Information from Excesses
    Computers (A-14-05-15063), August 2005.

•   Summary of State Disability Determination Services Administrative Cost Audits Completed in
    Fiscal Years 2000 through 2003 (A-15-03-13061), June 2004.

•   The Social Security Administration’s Oversight of Indirect Costs Claimed by Disability
    Determination Services (A-07-03-23086), March 2004.

•   The Office of Disability Adjudication and Review’s Staffing Plans Under the American Recovery
    and Reinvestment Act (A-12-09-29140), December 2009.

•   Regional Reviews May Disclose State Disability Determination Services’ Usage of Social
    Security Administration Computer Equipment for Non-Program Computer Purpose (A-15-00-
    20050), July 2002.

•   Reliability of the Data Used to Measure Disability Determination Services Decisional Accuracy
    (A-07-99-21007), June 2001.

•   Reliability of Diagnosis Codes Contained in the Social Security Administration’s Data Bases (A-
    01-99-61001), March 2000.

•   Use of the Sanctioned Medical Providers by State Disability Determination Services
    (A-07-99-24006), March 2001.




Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)          B-4
                                                                          Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contact
   Jeffrey Brown, Acting Director, Technical Services Division

Acknowledgments
In addition to those named above:

   Upeksha Peramune, Auditor
   Lornalee Spence, Senior IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-44-10-20101.




Identifying Requirements for DCPS Based on Findings from Prior Audits (A-44-10-20101)
                             DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                             Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations
